     Department of Homeland Security





           FEMA Public Assistance Grant 

             Funds Awarded to City of 

              Hattiesburg, Mississippi 





DA-12-21                                    June 2012

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security
                                        Washington, DC 20528 / www.oig.dhs.gov


                                          June 22, 2012


MEMORANDUM FOR:




FROM:
                                       Assistant Inspector G neral
                                       Office of Emergency Management Oversight

SUBJECT:                               FEMA Public Assistance Grant Funds Awarded to
                                       City of Hattiesburg, Mississippi
                                       FEMA Disaster Number 1604-DR-MS
                                       Audit Report Number DA-12-21

We audited Public Assistance grant funds awarded to the City of Hattiesburg, Mississippi
(City) (FIPS Code 035-31020-00). Our audit objective was to determine whether the City
accounted for and expended Federal Emergency Management Agency (FEMA) grant
funds according to Federal regulations and FEMA guidelines.

As of August 24, 2011, the City had received a Public Assistance award of $10.8 million
from the Mississippi Emergency Management Agency (State), a FEMA grantee, for
damages resulting from Hurricane Katrina, which occurred in August 2005. The award
provided 100 percent FEMA funding for emergency protective measures and the
replacement of utilities, equipment, and buildings damaged as a result of the disaster.
                                                     1
The award included 24 large and 209 small projects.

We audited five large projects with awards totaling $4.9 million. The audit covered the
period August 29, 2005, to August 24, 2011, during which the City submitted claims for
$4.5 million for the five projects included in our audit scope (see Exhibit, Schedule of
Projects Audited). At the time of our audit, the City had not completed work on all
projects, and therefore, had not submitted a final claim to the State for project
expenditures.

We conducted this performance audit between August 2011 and April 2012 pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted


1   Federal regulations in effect at the t ime of Hurricane Katrina set the large project threshold at $55,500.
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security



   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective. We conducted this audit by applying the statutes, regulations, and
   FEMA policies and guidelines in effect at the time of the disaster.

   We judgmentally selected project costs (generally based on dollar value); interviewed
   City, State, and FEMA personnel; reviewed the City’s procurement policies and
   procedures; reviewed applicable Federal regulations and FEMA guidelines; and
   performed other procedures considered necessary to accomplish our audit objective.
   We did not assess the adequacy of the City’s internal controls applicable to its grant
   activities because it was not necessary to accomplish our audit objective. However, we
   gained an understanding of the City’s method of accounting for disaster-related costs
   and its policies and procedures for administering activities provided for under the FEMA
   award.


                                              RESULTS OF AUDIT

   The City generally accounted for and expended FEMA grant funds according to Federal
   regulations and FEMA guidelines. However, the City’s claim included $235,341 of
   charges that were not adequately supported, which consisted of $5,496 in force account
   labor charges, $199,812 in debris removal charges, and $30,033 in debris monitoring
   charges. Finally, we identified $448,509 in ineligible project funding to replace a fire
   station and $436,375 of ineligible road repair costs.

   Finding A: Supporting Documentation

   The City claimed unsupported costs of $235,341 under Projects 3711 and 4667. Cost
   principles at 2 CFR 225, Cost Principles for State, Local, and Indian Tribal Governments,
   Appendix A, (C)(1)(j), state that a cost must be adequately documented to be allowable
   under Federal award. We question the $235,341 as follows:

          •	 Force Account Labor. 2 Under Project 3711, the City’s claim included $5,496 of
             overtime pay for 11 police sergeants and one court clerk that were not paid to
             the employees. This occurred because the City misapplied its overtime pay
             policies when calculating the claim under the project.

   2
       Force account refers to the City’s personnel and equipment.


www.oig.dhs.gov                                         2	                               DA-12-21
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security




       •	 Debris Removal. Under Project 4667, the City’s claim included $199,812 of
          contract debris removal charges that were not adequately supported by load
          tickets. The contractor billed the City $1,261,654 for tree hazard abatement
          activities. However, 284 of the 1,300 load tickets (22 percent) that supported
          the contractor’s billings contained deficiencies that prevented us from validating
          $199,812 of the charges. These deficiencies included the following:

                  •	 36 tickets totaling $30,738 that did not contain debris monitors’
                     signatures;
                  •	 168 tickets totaling $111,098 that did not contain the beginning and
                     ending times for work completed;
                  •	 14 tickets totaling $15,440 that did not identify the location where the
                     work was performed;
                  •	 33 tickets totaling $20,592 that did not contain the truck driver’s name;
                     and
                  •	 33 tickets totaling $21,944 where truck drivers’ names were duplicated
                     for work on the same date and time period in different locations.

           FEMA’s Debris Management Guide (FEMA 325, April 1999, p. 30) states that
           proper and efficient management is essential with unit price contracts because
           the focal point is quantity verification for payment. Payment under a unit price
           contract is normally made on the basis of load tickets. The guide states that load
           tickets should be treated as accounting forms, and should include the
           contractor’s name, date, truck number, truck capacity, truck driver’s name,
           debris classification, zone/sector, dumpsite locations, loading time, dumping
           time, and site monitors (loading and dumping).

           According to City officials, they were not aware of debris load ticket
           documentation requirements, and therefore, they relied on the monitoring
           contractor to review the accuracy of the load tickets.

       •	 Debris Monitoring. The City’s claim of $375,112 for contract debris monitoring
          costs of tree hazard abatement activities under Project 4667 included $30,033 of
          unsupported labor charges. The $30,033 included labor hours billed for: (1) 13
          debris monitors on days when no load tickets were claimed, (2) 3 days in early
          September 2005 even though the contractor was not given notice to proceed
          until late October 2005, and (3) three administrative personnel whose
          timesheets did not agree with the hours invoiced. The excess claim occurred



www.oig.dhs.gov                                   3	                                       DA-12-21
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


           because the City did not adequately review or receive the proper documentation
           to support the contractor’s billings.


   According to 44 CFR 13.37(a)(2), the State, as grantee, is required to ensure that
   subgrantees are aware of requirements imposed on them by Federal regulations.
   Further, 44 CFR 13.40(a) requires the grantee to manage the day-to-day operations of
   subgrant activity and monitor subgrant activity to ensure compliance with applicable
   Federal requirements. Therefore, the State should have done a better job of ensuring
   that the City was reimbursed only for eligible costs.

   City Response. City officials disagreed with the finding. They said that they calculated
   force account labor costs correctly and that FEMA verified the calculation. City officials
   also said that they could not respond to the debris removal and monitoring issues under
   Project 4667 until they received additional documentation requested from their
   contractor.

   OIG Response. We disagree that the labor costs were calculated correctly. Also, cost
   principles at 2 CFR 225 state that a cost must be adequately documented to be
   allowable under Federal award. Therefore, our finding remains unchanged.

   Finding B: Ineligible Project Funding

   The City received $448,509 of ineligible funding on Project 8294 due to errors in the
   calculation of the wall area used in the FEMA Cost Estimating Format (CEF). The City
   applied for an improved project 3 to replace a fire station. FEMA approved the request
   and obligated $1,502,182 using the CEF, which is its standard procedure for estimating
   eligible funding under large projects. FEMA Standard Operating Procedure 9570.8
   provides guidance on the CEF process and refers to an Excel-based template used to
   estimate costs for large projects. Once the eligible scope of work and base costs are
   determined, add-on factors such as overhead, bonds, insurance, cost escalation, project
   management, profit, and so on are then added to arrive at the total estimated eligible
   project costs.

   We identified calculation errors in the Excel-based template for the add-on factors of
   quality control and storage costs, which overstated the total estimated dollars by

   3
    An improved project refers to restoration work that involves improvements to a damaged facility while
   maintaining the same function of the predisaster facility and at least the equivalent capacity. Federal
   regulation 44 CFR 206.203(d)(1) limits Federal funding for improved projects to the Federal share of the
   approved estimates of eligible costs.


www.oig.dhs.gov                                       4                                                DA-12-21
                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   $42,998. We brought this calculation error to FEMA’s attention during our fieldwork.
   FEMA subsequently reviewed the CEF calculation for accuracy and determined that the
   wall area measurements were also incorrect. This occurred because FEMA did not
   adequately validate the measurements during its initial calculation of the CEF. Using the


   revised figures, FEMA recalculated the CEF, which resulted in a $448,509 reduction in
   estimated costs from the original CEF.

   City Response. City officials disagreed with the finding, saying that the City’s funding
   should not be reduced because they relied on the estimate prepared by FEMA.

   OIG Response. The City was awarded funds in excess of actual damages cited in the
   scope of work. Therefore, the $448,509 of ineligible funding is not allowable under the
   project.

   Finding C: Ineligible Road Repairs

   The City’s claim under Project 6376 included $436,375 of road repair costs that were not
   properly documented as eligible for reimbursement. In February 2006, FEMA awarded
   $204,466 of project funding for road repairs. This estimate was based on a detailed
   damage assessment performed by FEMA after the disaster. In November 2006, FEMA
   increased the project funding to $588,007, citing in the project worksheet that
   “additional work” and the 50 percent rule 4 were the reasons for the funding increase.

   The City claimed $588,007 for road repairs under the project. However, only $151,632
   of the costs were for eligible repairs based on the initial damage assessment. The
   project file contained no other damage assessments to indicate that the additional
   $436,375 ($588,007 minus $151,632) of costs were for eligible road work. Further,
   neither the City nor FEMA was able to provide us with documentation to support the
   additional damages, or to show that the 50 percent rule was applicable. FEMA should
   have maintained adequate documentation to justify the increases in project funding.

   Federal regulation 44 CFR 206.223(a)(1) states that an item of work must be required as
   a result of a major disaster event to be eligible for financial assistance. In addition,
   Federal regulation 2 CFR 225, Cost Principles for State, Local, and Indian Tribal
   Governments, Appendix A, (C)(1)(j), states that a cost must be adequately documented
   to be allowable under Federal award. We question the $436,375 because the project

   4
    The 50 percent rule states that a facility is eligible for replacement when the estimated repair cost
   exceeds 50 percent of the estimated replacement cost.


www.oig.dhs.gov                                         5                                                   DA-12-21
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   documentation was insufficient for us to determine the eligibility of the road repair
   costs claimed.

   City Response. City officials disagreed with the finding. They said that the costs should
   be allowed because they had presumed that FEMA had the proper documentation for
   the additional work and the 50 percent rule decision when FEMA approved the project.

   OIG Response. Federal regulations state that an item of work must be required as a
   result of a major disaster to be eligible for assistance and that costs must be adequately
   documented to be allowable under a Federal award. Neither the City nor FEMA was
   able to provide evidence of additional damages, or show that the 50 percent rule was
   applicable. Therefore, our finding remains unchanged.


                                     RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IV:

           Recommendation #1: Disallow $235,341 of unsupported costs, which consists of
           $5,496 under Project 3711 and $229,845 under Project 4667 (finding A).

           Recommendation #2: Instruct the State to improve its procedures for validating
           project costs claimed by subgrantees to provide reasonable assurance that only
           eligible costs are reimbursed (finding A).

           Recommendation #3: Deobligate and put to better use $448,509 of ineligible
           improved project funding awarded under Project 8294 (finding B).

           Recommendation #4: Disallow $436,375 of ineligible road repair costs claimed
           under Project 6376 (finding C).

           Recommendation #5: Reemphasize to Public Assistance personnel the need to
           maintain adequate documentation to justify project funding increases
           (finding C).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with City, State, and FEMA officials during our
   fieldwork. We also provided a draft report in advance to these officials and discussed it
   at the exit conference held on April 18, 2012. City officials disagreed with all findings.


www.oig.dhs.gov                                6                                           DA-12-21
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Their comments, where appropriate, are included in the body of the report. FEMA and
   State officials expressed a need to review additional documentation before providing
   comments on the findings and recommendations.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please

   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report were David Kimble, Eastern Region Audit Director;
   Larry Arnold, Audit Manager; J. Hugh Dixon, Auditor-in-charge; and James Miller, Auditor.

   Please call me with any questions, or your staff may contact David Kimble, Eastern
   Region Audit Director, at (404) 832-6702.




www.oig.dhs.gov                                7                                        DA-12-21
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security



                                                                             EXHIBIT

                             Schedule of Projects Audited

                           August 29, 2005, to August 24, 2011

                               City of Hattiesburg, MS

                          FEMA Disaster Number 1604-DR-MS


                                                                    Funds Put
 Project                                     Amount       Amount    to Better
 Number               Project Scope          Awarded     Questioned    Use    Findings
12          Communication Equipment         $ 877,839      $      0 $       0
            Police Department – Emergency
3711
            Protective Measures                267,367        5,496          0      A
4667        Tree Hazard Abatement            1,636,766      229,845          0      A
6376        Asphalt Pavement                   588,007      436,375          0      C
8294        Fire Station                     1,502,182            0   $448,509      B
Totals                                      $4,872,161     $671,716   $448,509




www.oig.dhs.gov                             8                                    DA-12-21
                                OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security




   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison, DHS

   Federal Emergency Management Agency

   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Audit Liaison, FEMA Region IV
   Audit Liaison, FEMA (Job Code G-11-061)

   Grantee

   Director, Mississippi Emergency Management Agency

   State

   State Auditor, Mississippi

   Subgrantee

   Division Manager, City of Hattiesburg, Mississippi




www.oig.dhs.gov                               9                     DA-12-21
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
